          Office of Inspector General




July 25, 2006

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Surface Transportation – Processing and Distribution
         Center Transportation Routes – Great Lakes Area
         (Report Number NL-AR-06-008)

This report presents results from our processing and distribution center (P&DC)
transportation routes audit (Project Number 06XG012NL000). Our objectives were to
evaluate the effectiveness of P&DC routes and identify opportunities to save money.
This report responds to a request from the vice president, Network Operations
Management, and focuses on routes controlled by the Great Lakes Area.

The U.S. Postal Service could save about $5.3 million over the term of existing Great
Lakes Area P&DC highway contracts by canceling, not renewing, or modifying 107 trips.
The savings represent potential funds that could be put to better use and will be
reported as such in our Semiannual Report to Congress. The Postal Service could
eliminate or modify the trips without negatively affecting service because trip volume
was low and mail could be consolidated on other trips. We recommended the vice
president, Great Lakes Area Operations: (1) verify the actual cancellation, modification,
or substitution of the 20 trips identified by Postal Service managers during our audit;
(2) verify the actual cancellation, modification, or substitution of the 73 trips with which
Postal Service officials agreed; and (3) reassess the 14 trips managers feel are still
necessary.

Management agreed with our recommendations. They stated that all 93 trip reductions
to which they agreed were in the process of being completed. They also stated they
would reassess the 14 remaining trips. Management’s comments and our evaluation of
these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
director, Transportation, or me at (703) 248-2300.


 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Surface Transportation – Processing and Distribution Center                    NL-AR-06-008
 Transportation Routes – Great Lakes Area


                                        INTRODUCTION
 Background                     Processing and distribution centers (P&DCs) are central
                                facilities that receive and process mail and then distribute it
                                to local service areas over the U.S. Postal Service
                                transportation network. The mail processed by P&DCs,
                                including First-Class Mail and Periodicals, is very time
                                sensitive. As a result, Postal Service transportation
                                managers often must move it from origin to destination
                                overnight and, in making transportation decisions,
                                continually balance on-time service standards with
                                transportation costs. There are approximately 270 P&DCs
                                in the Postal Service network and the Postal Service spends
                                about $1.3 billion annually on surface transportation
                                contracts moving mail to and from these facilities.




   Highway transportation
   contractor departing the
   Palatine, Illinois, P&DC,
      January 31, 2006.




                                On November 22, 2005, the vice president, Network
                                Operations Management, requested that we audit the
                                scheduled contracted transportation routes supporting
                                P&DCs. Individual Postal Service areas control those
                                routes. This report focuses on routes the Great Lakes Area
                                controls and responds to the request from the vice
                                president, Network Operations Management.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of the scheduled contracted transportation
                                routes supporting P&DCs and to identify opportunities to
                                save money.



                                                    1
Surface Transportation – Processing and Distribution Center                   NL-AR-06-008
 Transportation Routes – Great Lakes Area



                                Using Postal Service computer-generated data, we
                                identified 8,659 trips operated under 870 Great Lakes Area
                                contracts that had at least one P&DC service point. We did
                                not audit or comprehensively validate the data; however, we
                                noted several control weaknesses that constrained our
                                work. For example, some computer files had missing
                                records and inaccurate trailer load volumes. Even though
                                data limitations constrained our work, we were able to
                                partially compensate by applying alternate audit procedures,
                                including source document examination, observation,
                                physical inspection, and discussion with appropriate
                                officials.

                                During our work, we audited 34 facilities, interviewed
                                officials at headquarters and in the Great Lakes Area,
                                reviewed relevant Postal Service policies and procedures,
                                interviewed managers and employees, and observed and
                                photographed operations. We also evaluated mail volume
                                and the type of mail carried, considered on-time service
                                standards and area initiatives to improve service, and
                                analyzed all 8,659 trips.

                                We conducted work associated with this report from
                                January through July 2006, in accordance with generally
                                accepted government auditing standards, and included such
                                tests of internal controls as we considered necessary under
                                the circumstances. We discussed our observations and
                                conclusions with management officials and included their
                                comments where appropriate.

 Prior Audit Coverage           Since September 2002, the U.S. Postal Service Office of
                                Inspector General has worked with the Postal Service to
                                reduce surface transportation. As a result, we have issued
                                22 audit reports that identified potential savings exceeding
                                $83.4 million over the life of eliminated or reduced
                                transportation contracts. For more detailed information
                                about these audits, see Appendix A.




                                                    2
Surface Transportation – Processing and Distribution Center                        NL-AR-06-008
 Transportation Routes – Great Lakes Area


                                        AUDIT RESULTS
 Contracted Highway             The Postal Service could improve the effectiveness of
 Transportation Trips           scheduled surface contract routes supporting P&DCs and
                                save about $5.3 million over the term of existing Great
                                Lakes Area highway contracts by canceling, not renewing,
                                or modifying 107 trips. The Postal Service could eliminate
                                or modify the trips without negatively affecting on-time
                                service because trip mail volume was low and mail could be
                                consolidated on other trips. As indicated below, 13 percent
                                of affected trips expire on June 30, 2006. The other
                                87 percent expire in 2007 or later and have 1 to 3 years
                                remaining.

                                          PROPOSED NONRENEWALS AND CANCELLATIONS
                                                              AFFECTED      NUMBER     ESTIMATED
                                    TRIP CATEGORY               TRIPS       OF TRIPS    SAVINGS

                                 Contracts expiring on
                                 June 30, 2006                 13 percent     14        $2,233,317


                                 Contracts expiring in
                                 2007 or later                 87 percent     93         3,056,532

                                 All terminated trips         100 percent    107        $5,289,849

                                The Postal Service transportation network is dynamic and
                                requirements constantly change. As we discussed in the
                                objectives, scope, and methodology section of our report
                                Postal Service data has certain limitations. Consequently,




    Milwaukee P&DC dock,
       February 2, 2006.




                                our data analysis needed to be tempered by the experience
                                of on-site transportation managers. Accordingly, throughout
                                our audit we coordinated extensively with plant and area


                                                        3
Surface Transportation – Processing and Distribution Center                         NL-AR-06-008
 Transportation Routes – Great Lakes Area


                                transportation officials and proposed service reductions to
                                them. The officials then reviewed each proposal in
                                conjunction with their own assessment of area-wide network
                                requirements and we discussed our proposals with them.

                                Based on these discussions, we believe the Postal Service
                                could attain savings through service reductions by:

                                    •    Not renewing unnecessary trips that were scheduled
                                         to expire on June 30, 2006.

                                    •    Canceling unnecessary trips that are currently
                                         contracted to expire in 2007 or later and have 1 to
                                         3 years remaining.

                                The savings we identified included savings from
                                nonrenewable trips, plus savings from trip cancellations net
                                of cancellation fees totaling approximately $162,730. The
                                area agreed with the 93 proposals outlined in Appendices B
                                and C and agreed to reassess the 14 trips listed in
                                Appendix D, which plant and district managers feel are still
                                necessary.

                                           PROPOSED CANCELLATIONS AND MODIFICATIONS
                                         CANCELLATION             NUMBER                ESTIMATED
                                           CATEGORY               OF TRIPS   APPENDIX    SAVINGS
                                 Postal Service identified trip
                                 cancellations or
                                                                     20         B        $660,850
                                 modifications during the
                                 audit

                                 Proposals with which area
                                                                     73         C        2,915,795
                                 officials agreed

                                 Proposals with which plant
                                 and district managers               14         D        1,713,204
                                 disagreed
                                 Total                              107                 $5,289,849


                                Agreement on 93 terminations, modifications, or
                                substitutions reflects the high level of cooperation between
                                the Great Lakes Area and our audit team. Nonetheless, we
                                continue to believe the 14 service reduction proposals with
                                which local management disagreed provide the potential for
                                savings without jeopardizing on-time performance. For
                                example, two separate 700-mile round trips between
                                Milwaukee, Wisconsin, and St. Louis, Missouri, both travel



                                                     4
Surface Transportation – Processing and Distribution Center                          NL-AR-06-008
 Transportation Routes – Great Lakes Area


                                across country about half-full and essentially duplicate each
                                other. The trips, operating under the same contract —
                                highway contract route (HCR) 530M9 — run 5 days each
                                week to and from processing plants located in close
                                proximity to each other. One truck moves First-Class Mail
                                and Periodicals. The other truck moves Priority Mail.

                               Departure   Trip                Origin to          Arrival   Capacity
                                 Time    Number               Destination          Time     Utilization

                                                   Milwaukee P&DC to St. Louis
                                 0600        1                                     1400     57 percent
                                                   P&DC

                                                   Milwaukee Mail Processing Annex
                                 0630        5                                      1400    36 percent
  The two highway trips                            to St. Louis Priority Mail Annex
     contracted under
    HCR 530M9 depart                               St. Louis P&DC to Milwaukee
                                 0300        2                                     1100     53 percent
  Milwaukee within a half                          P&DC
  hour of each other and
   arrive in St. Louis at                          St. Louis Priority Mail Annex to
                                 0630        6                                      1400    36 percent
   the same time. They                             Milwaukee Mail Processing Annex
   each travel 700 miles
  round-trip 5 days each
           week.

   The chart on the right
   shows the trips could
   be consolidated. The                                           MILWAUKEE
   distance between the
    local plants in both
       Milwaukee and                                             ST. LOUIS
   St. Louis is less than
    20 miles, making it
   easy to add a service
   point and consolidate
            trips.




                                Local management explained that they needed to operate
                                both trips in order to keep Priority Mail separate from
                                First-Class Mail and Periodicals. However, segregating
                                different classes of mail on separate transportation is
                                inconsistent with long-range Postal Service strategy.
                                Specifically, in September 2004, the Postmaster General
                                explained that:

                                    •   As part of evolutionary network development, the
                                        Postal Service was consolidating First-Class Mail,
                                        Priority Mail, and Periodicals in distribution operations
                                        across the country.




                                                    5
Surface Transportation – Processing and Distribution Center                                  NL-AR-06-008
 Transportation Routes – Great Lakes Area


                                       •    The Postal Service was consolidating to reduce
                                            redundancy, optimize air and surface transportation,
                                            and achieve a more cost-effective network.

                                   The Postmaster General emphasized that a truck is a truck,
                                   a plane is a plane, and the Postal Service should load all it
                                   could on every truck or plane regardless of mail class.1

                                   On May 30, 2006, we conducted a meeting with Great
                                   Lakes Area officials to discuss our report and
                                   recommendations. At that meeting, the officials agreed with
                                   our recommendations and specifically agreed to analyze the
                                   14 trips local managers felt were still needed.

    Recommendation                 We recommend the vice president, Great Lakes Area
                                   Operations:

                                       1. Verify the actual cancellation, modification, or
                                          substitution of the 20 trips management identified
                                          during our audit.

    Management’s                   Management agreed with our recommendation and stated
    Comments                       they were in the process of completing the changes.
                                   Regarding monetary findings, management stated they
                                   could not validate the savings amount at this time. They
                                   explained network management was dynamic, that
                                   changing requirements might result in further substitutions,
                                   and that when their analysis of our recommendations was
                                   complete, they would work with us to reconcile and report
                                   expected savings. Management’s comments, in their
                                   entirety, are included in Appendix E of this report.

    Recommendation                 We recommend the vice president, Great Lakes Area
                                   Operations:

                                       2. Verify the actual cancellation, modification, or
                                          substitution of the 73 trips with which Postal Service
                                          managers agreed and provide the dates action was
                                          taken.

    Management’s                   Management agreed with our recommendation. They
    Comments                       stated they were in the process of completing the
                                   recommended changes.

1
    Remarks by Postmaster General John E. Potter, National Postal Forum, Washington, D.C., September 20, 2004.



                                                        6
Surface Transportation – Processing and Distribution Center                   NL-AR-06-008
 Transportation Routes – Great Lakes Area




 Recommendation                 We recommend the vice president, Great Lakes Area
                                Operations:

                                    3. Reassess the 14 trips which Postal Service
                                       managers still feel are necessary and cancel or
                                       modify the trips as indicated by the reassessment or
                                       document the reasons for retaining the trips.

 Management’s                   Management agreed with our recommendation. They
 Comments                       stated that they would reassess the proposed trip changes
                                to determine if they could modify them without impacting
                                service.

 Evaluation of                  Management’s comments are responsive to our findings
 Management’s                   and recommendations. We consider management’s
 Comments                       actions, taken or planned, sufficient to address the
                                recommendations we made in our report.




                                                    7
Surface Transportation – Processing and Distribution Center                                                            NL-AR-06-008
 Transportation Routes – Great Lakes Area




                                                     APPENDIX A. PRIOR AUDIT COVERAGE
                                                                                      Number of Trips                  Trips With      Trips With
                                                                         Date Final    Identified for    Potential       Which           Which         Trips
                                                              Report      Report       Elimination or     Savings     Management      Management    Identified by
                     Report Name                              Number      Issued        Modification     Identified     Agreed         Disagreed    Management

                                                          TD-AR-02-003   9/24/2002         158           $4,500,417       76               34             48
 Highway Network Scheduling - Pacific Area
 Highway Network Scheduling - Northeast Area              TD-AR-03-002   11/25/2002         18              776,992       10                8              0
 Highway Network Scheduling - Capital Metro Area          TD-AR-03-007    3/28/2003         34            1,144,218       20               14              0
 Highway Network Scheduling - New York Metro Area         TD-AR-03-008    3/31/2003         32              470,123       12               20              0
 Highway Network Scheduling - Southwest Area              TD-AR-03-010    7/11/2003        249            5,989,082      148              101              0
 Highway Network Scheduling - Western Area                TD-AR-03-013    9/23/2003         70            2,721,530       30               40              0
 Highway Network Scheduling - Southeast Area              TD-AR-03-014    9/26/2003        101           11,352,881       23               24             54
 Highway Network Scheduling - Eastern Area                TD-AR-03-015    9/30/2003        181           10,577,367      128               53              0
 Highway Network Scheduling - Great Lakes Area            NL-AR-04-003    3/29/2004         72            5,352,877       48               22              2
 BMC Transportation Routes - Great Lakes Area             NL-AR-04-004    9/29/2004         96            7,660,533       49                7             40
 BMC Transportation Routes - Eastern Area                 NL-AR-05-003    3/17/2005         35            4,791,570       29                6              0
 Intermodal Rail and Highway Transportation - Pacific     NL-AR-05-004    3/18/2005          0            1,046,240        0                0              0
  Area
 BMC Transportation Routes - Southeast Area               NL-AR-05-005   3/18/2005           52           6,563,582       52                0               0
 BMC Transportation Routes - New York Metro               NL-AR-05-007    6/9/2005           16           1,499,371       16                0               0
 BMC Transportation Routes - Southwest Area               NL-AR-05-008    8/3/2005           79           7,175,912       76                0               3
 BMC Transportation Routes - Capital Metro Area           NL-AR-05-009   9/2/2005            10             803,060       10                0               0
 Intermodal Rail and Highway Transportation Between       NL-AR-05-011   9/19/2005            0           1,261,308        0                0               0
  the Pacific and Southeast Areas
 BMC Transportation Routes - Pacific Area                 NL-AR-05-012   9/21/2005           22           3,123,562       10                2             10
 BMC Transportation Routes - Northeast Area               NL-AR-05-013   9/26/2005           41           2,491,133       15                0             26
 BMC Transportation Routes - Western Area                 NL-AR-06-001   2/14/2006           77           2,235,812       50                2             25
 Intermodal Rail and Highway Transportation Between       NL-AR-06-002   3/10/2006            2           1,942,841        2                0              0
  the Western and Great Lakes Areas
 BMC Transportation Routes - Summary Report               NL-AR-06-004   3/28/2006            0                   0        0                0              0
                                                               22                         1,345         $83,480,411      804              333            208
                         Totals

BMC − Bulk Mail Center


                                                                                 8
Surface Transportation – Processing and Distribution Center                                                             NL-AR-06-008
 Transportation Routes – Great Lakes Area




                                                                             APPENDIX B

                                          TRIPS IDENTIFIED BY POSTAL SERVICE MANAGERS
                                                        DURING AUDIT WORK



                                 Highway
  Effective       Ending         Contract                                                                     Annual    Estimated
 Date of Last     Date of         Route        Trip                                     Origin to             Budget     Contract      Indemnity   Estimated
   Change         Contract       Number       Number          Recommendation           Destination             Cost        Cost           Fees      Savings
   1/21/2006      6/30/2007       62591           1         Eliminate trip        Springfield BMC, MO to      $85,642     $99,916        $14,274    $85,642
                                                                                  Memorial Station
                                                                                  (Decatur), IL

   1/21/2006      6/30/2007       62591           2         Eliminate trip        Memorial Station            65,995     76,994         10,999      65,995
                                                                                  (Decatur), IL to
                                                                                  Springfield BMC, MO

   10/29/2005     6/30/2007       62590          101        Eliminate trip        Springfield P&DC, IL to     40,291     47,006          6,715      40,291
                                                                                  St. Louis P&DC, MO

   10/29/2005     6/30/2007       62590          102        Eliminate trip        St. Louis P&DC, MO to       40,291     47,006          6,715      40,291
                                                                                  Springfield P&DC, IL

   11/5/2005      6/30/2009       48132       13, 14, 17,   Eliminate trips       Detroit P&DC to             50,865    161,073              0      161,073
                                              18, 37, 38                          Lincoln, MI or Taylor, MI
                                                                                  and return
    7/1/2005      6/30/2009       48135         9, 10       Eliminate trips       Monroe, MI to Detroit,      51,363     162,651             0      162,651
                                                                                  MI Priority Mail Center
                                                                                  and return

   9/17/2005      6/30/2008       544AA           11        Eliminate trip        Central Wisconsin           11,227     24,324              0      24,324
                                                                                  P&DF, WI to Wausau,
                                                                                  WI
   9/17/2005      6/30/2008       544AA           12        Eliminate trip        Wausau, WI to Central       10,702     23,188              0      23,188
                                                                                  Wisconsin P&DF, WI




                                                                                   9
Surface Transportation – Processing and Distribution Center                                                           NL-AR-06-008
 Transportation Routes – Great Lakes Area


                                 Highway
  Effective       Ending         Contract                                                                 Annual      Estimated
 Date of Last     Date of         Route        Trip                                    Origin to          Budget       Contract      Indemnity   Estimated
   Change         Contract       Number       Number          Recommendation          Destination           Cost         Cost           Fees      Savings
    7/1/2005      6/30/2009       478AA        1, 2, 13,   Eliminate trips and   Terre Haute P&DC, IN     $ 14,719     $ 46,611        $    0     $ 46,611
                                                  14       stops at Columbia     to Col House (Terre
                                                           House                 Haute), IN and return

   2/11/2006      6/30/2007       480L1         11, 12     Eliminate trips       Royal Oak P&DC, MI to     10,786      12,584          1,798      10,786
                                                                                 Pontiac, MI and return



                   TOTALS           20                                                                    $381,880*   $701,351*       $40,501    $660,851*

BMC − Bulk Mail Center
P&DC − Processing and Distribution Center
P&DF − Processing and Distribution Facility

* Minor rounding difference




                                                                                 10
Surface Transportation – Processing and Distribution Center                                                                  NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area




                                                                          APPENDIX C

                                       TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                              POSTAL SERVICE MANAGERS AGREED


                                  Highway
  Effective        Ending         Contract                                                                                   Estimated
 Date of Last     Date of          Route         Trip                                       Origin to            Annual       Contract      Indemnity   Estimated
   Change         Contract        Number        Number        Recommendation               Destination         Budget Cost      Cost           Fees      Savings
   5/14/2005      6/30/2007        60046           41         Eliminate Tuesday,      Palatine P&DC, IL to        $9,168       $10,696        $1,528      $9,168
                                                              Wednesday,              Skokie, IL
                                                              Thursday, Friday, and
                                                              Sunday trips
   5/14/2005      6/30/2007        60046           42         Eliminate Tuesday,      Skokie, IL to Palatine       9,296       10,845         1,549       9,296
                                                              Wednesday,              P&DC, IL
                                                              Thursday, Friday, and
                                                              Sunday trips
    7/1/2005      6/30/2007        600CG            1         Eliminate Saturday      Palatine P&DC, IL to         3,866        4,510          644        3,866
                                                              trips                   Rockford P&DC, IL
    7/1/2005      6/30/2007        600CG            2         Eliminate Saturday      Rockford P&DC, IL to         3,866        4,510          644        3,866
                                                              trips                   Palatine P&DC, IL
   9/12/2005      6/30/2007        600L7           125        Eliminate Saturday      Palatine P&DC, IL to         2,496        2,912          416        2,496
                                                              trips                   McHenry, IL
   9/12/2005      6/30/2007        600L7           126        Eliminate Saturday      McHenry, IL to               2,496        2,912          416        2,496
                                                              trips                   Palatine P&DC, IL
    7/1/2005      6/30/2007        60133           329        Eliminate trip          Carol Stream P&DC,           4,995        5,828          833        4,995
                                                                                      IL to Hanover Park, IL
    7/1/2005      6/30/2007        60133           330        Eliminate trip          Hanover Park, IL to          4,995        5,828          833        4,995
                                                                                      Carol Stream P&DC,
                                                                                      IL
    7/1/2005      6/30/2007        60223            1         Eliminate Monday        Chicago 2C Metro            40,193       46,892         6,699      40,193
                                                              trips                   Facility, IL to Omaha
                                                                                      P&DC, NE




                                                                                      11
Surface Transportation – Processing and Distribution Center                                                               NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area


                                  Highway
  Effective        Ending         Contract                                                                                Estimated
 Date of Last     Date of          Route         Trip                                     Origin to           Annual       Contract      Indemnity   Estimated
   Change         Contract        Number        Number        Recommendation             Destination        Budget Cost     Cost            Fees      Savings
    7/1/2005      6/30/2007        60223            2         Eliminate Monday      Omaha P&DC, NE to        $ 40,193     $ 46,892         $6,699     $ 40,193
                                                              trips                 Chicago 2C Metro
                                                                                    Facility, IL
   5/14/2005      6/30/2006        60415           17         Eliminate trip        South Suburban             60,967      243,868             0      243,868
                                                                                    P&DC, IL to
                                                                                    Champaign P&DF, IL
   5/14/2005      6/30/2006        60415           18         Eliminate trip        Champaign P&DF, IL         60,967      243,868            0       243,868
                                                                                    to South Suburban
                                                                                    P&DC, IL
  12/24/2005      6/30/2007        60514           11         Eliminate trip        Fox Valley P&DC, IL        18,874       22,020         3,146       18,874
                                                                                    to O'Hare AMC, IL
  12/24/2005      6/30/2007        60514           12         Eliminate trip        O'Hare AMC, IL to          18,874       22,020         3,146       18,874
                                                                                    Fox Valley P&DC, IL
    8/6/2005      6/30/2009        60532           13         Eliminate Sunday      Fox Valley P&DC, IL         1,130        3,579            0        3,579
                                                              trips                 to Aurora, IL
    8/6/2005      6/30/2009        60532           14         Eliminate Sunday      Aurora, IL to Fox           1,130        3,579            0        3,579
                                                              trips                 Valley P&DC, IL
    7/1/2005      6/30/2009        605L0           1-4        Decrease truck size   Fox Valley P&DC, IL        10,000       31,667            0        31,667
                                                                                    to Midway Airport, IL
                                                                                    and return
    3/5/2005      6/30/2006        606GD            1         Eliminate contract    O'Hare AMC, IL to          69,191      276,763            0       276,763
                                                                                    North Houston
                                                                                    P&DC, TX
    3/5/2005      6/30/2006        606GD            2         Eliminate contract    North Houston              69,191      276,763            0       276,763
                                                                                    P&DC, TX to O'Hare
                                                                                    AMC, IL
    8/6/2005      6/30/2007        607M6           903        Eliminate trip        Chicago Metro Surf        142,479      166,225        23,746      142,479
                                                                                    Hub (Busse), IL to
                                                                                    Centralia, IL
    8/6/2005      6/30/2007        607M6           904        Eliminate trip        Centralia, IL to          142,479      166,225        23,746      142,479
                                                                                    Chicago Metro Surf
                                                                                    Hub (Busse), IL




                                                                                    12
Surface Transportation – Processing and Distribution Center                                                               NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area


                                  Highway
  Effective        Ending         Contract                                                                                Estimated
 Date of Last     Date of          Route         Trip                                  Origin to              Annual       Contract      Indemnity   Estimated
   Change         Contract        Number        Number        Recommendation          Destination           Budget Cost     Cost            Fees      Savings
    7/1/2005      6/30/2007        60893           801        Eliminate Sunday   Chicago 2C Metro            $ 12,078     $ 14,091        $ 2,013     $ 12,078
                                                              trips              Facility, IL to Portage,
                                                                                 WI
    7/1/2005      6/30/2007        60893           802        Eliminate Sunday   Portage, WI to                12,078       14,091         2,013       12,078
                                                              trips              Chicago 2C Metro
                                                                                 Facility, IL
    7/9/2005      6/30/2008        61731            3         Eliminate Sunday   Bloomington P&DF,              2,017        4,371             0       4,371
                                                              trips              IL to Leroy, IL
    7/9/2005      6/30/2008        61731            2         Eliminate Sunday   Leroy, IL to                   1,865        4,041             0       4,041
                                                              trips              Bloomington P&DF,
                                                                                 IL
   6/11/2005      6/30/2008        61765            3         Eliminate trip     Bloomington P&DF,              3,194        6,920             0       6,920
                                                                                 IL to Fairbury, IL
   6/11/2005      6/30/2008        61765            4         Eliminate trip     Fairbury, IL to                2,527        5,475             0       5,475
                                                                                 Bloomington P&DF,
                                                                                 IL
   4/18/2005      6/30/2008        617L5            3         Eliminate trip     Bloomington P&DF,              2,957        6,407             0       6,407
                                                                                 IL to Waynesville, IL
   4/18/2005      6/30/2008        617L5            4         Eliminate trip     Waynesville, IL to             1,706        3,697             0       3,697
                                                                                 Bloomington P&DF,
                                                                                 IL
   5/16/2005      6/30/2006        618L1            3         Eliminate trip     Champaign P&DF, IL             9,840       39,358            0       39,358
                                                                                 to Rantoul, IL
   5/16/2005      6/30/2006        618L1            4         Eliminate trip     Rantoul, IL to                 9,840       39,358            0       39,358
                                                                                 Champaign P&DF, IL
    7/9/2005      6/30/2006        618L2            1         Eliminate trip     Champaign P&DF, IL            14,317       57,269            0       57,269
                                                                                 to Bloomington
                                                                                 P&DF, IL
    7/9/2005      6/30/2006        618L2            2         Eliminate trip     Bloomington P&DF,             14,317       57,269            0       57,269
                                                                                 IL to Champaign
                                                                                 P&DF, IL
    7/9/2005      6/30/2008        618L8            3         Eliminate trip     Champaign P&DF, IL             4,907       10,632            0       10,632
                                                                                 to Camargo, IL
    7/9/2005      6/30/2008        618L8            4         Eliminate trip     Camargo, IL to                 2,472        5,357            0        5,357
                                                                                 Champaign P&DF, IL




                                                                                 13
Surface Transportation – Processing and Distribution Center                                                               NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area


                                  Highway
  Effective        Ending         Contract                                                                                Estimated
 Date of Last     Date of          Route         Trip                                    Origin to            Annual       Contract      Indemnity   Estimated
   Change         Contract        Number        Number        Recommendation            Destination         Budget Cost     Cost            Fees      Savings
   9/17/2005      6/30/2007        618L9            5         Eliminate Sunday     Champaign P&DF, IL        $ 5,220       $ 6,090         $   0      $ 6,090
                                                              trips                to Springfield P&DC,
                                                                                   IL
   9/17/2005      6/30/2007        618L9            6         Eliminate Sunday     Springfield P&DC, IL         5,220        6,090            0        6,090
                                                              trips                to Champaign P&DF,
                                                                                   IL
    9/3/2005      6/30/2007        62530           11         Eliminate trip       Springfield P&DC, IL        11,513       13,432         1,919      11,513
                                                                                   to Memorial Station
                                                                                   (Decatur), IL
    9/3/2005      6/30/2007        62530           12         Eliminate trip       Memorial Station            11,513       13,432         1,919      11,513
                                                                                   (Decatur), IL to
                                                                                   Springfield P&DC, IL
    9/3/2005      6/30/2007        62530           21         Eliminate trip       Springfield P&DC, IL        11,513       13,432         1,919      11,513
                                                                                   to Memorial Station
                                                                                   (Decatur), IL
    9/3/2005      6/30/2007        62530           22         Eliminate trip       Memorial Station            11,513       13,432         1,919      11,513
                                                                                   (Decatur), IL to
                                                                                   Springfield P&DC, IL
   3/19/2005      6/30/2007        626L5            1         Eliminate Saturday   Springfield P&DC, IL          571          666            95          571
                                                              trips                to Chatham, IL
   3/19/2005      6/30/2007        626L5            2         Eliminate Saturday   Chatham, IL to                571          666            95          571
                                                              trips                Springfield P&DC, IL
   3/19/2005      6/30/2007        626L5            3         Eliminate trip       Springfield P&DC, IL          571          666            95          571
                                                                                   to Chatham, IL
   3/19/2005      6/30/2007        626L5            4         Eliminate trip       Chatham, IL to                571          666            95          571
                                                                                   Springfield P&DC, IL
    7/3/2005      6/30/2009        48130           47         Eliminate trip       Detroit P&DC, MI to         14,824       46,944            0       46,944
                                                                                   Inkster, MI
    7/3/2005      6/30/2009        48130           48         Eliminate trip       Inkster, MI to Detroit      14,824       46,944            0       46,944
                                                                                   P&DC, MI
    7/2/2005      6/30/2009        483U4           805        Eliminate Sunday     Detroit BMC, MI to          11,868       37,582            0       37,582
                                                              trips                Traverse City P&DF,
                                                                                   MI
    7/2/2005      6/30/2009        483U4           806        Eliminate Monday     Traverse City P&DF,         12,226       38,714            0       38,714
                                                              trips                MI to Detroit BMC, MI


                                                                                   14
Surface Transportation – Processing and Distribution Center                                                        NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area


                                  Highway
  Effective        Ending         Contract                                                                         Estimated
 Date of Last     Date of          Route         Trip                                Origin to         Annual       Contract      Indemnity   Estimated
   Change         Contract        Number        Number        Recommendation        Destination      Budget Cost     Cost            Fees      Savings
    8/6/2005      6/30/2006        486AA           13         Eliminate trip   Saginaw P&DC, MI to     $ 4,327      $ 8,654         $   0      $ 8,654
                                                                               Saginaw P&DC
                                                                               Cumberland Sta, MI
    8/6/2005      6/30/2006        486AA           14         Eliminate trip   Saginaw P&DC             4,544         9,087            0        9,087
                                                                               Cumberland Sta, MI
                                                                               to Saginaw P&DC, MI
    7/1/2005      6/30/2007        488AA           101        Eliminate trip   Lansing P&DC, MI to      4,621         5,391          770        4,621
                                                                               East Lansing, MI
    7/1/2005      6/30/2007        488AA           102        Eliminate trip   East Lansing, MI to      4,621         5,391          770        4,621
                                                                               Lansing P&DC, MI
    7/1/2005      6/30/2007        488AA           309        Eliminate trip   Lansing P&DC, MI to        787          918           131         787
                                                                               Lansing (Downtown
                                                                               Station), MI
    7/1/2005      6/30/2007        488AA           310        Eliminate trip   Lansing (Downtown          787          918           131          787
                                                                               Station), MI to
                                                                               Lansing P&DC, MI
    7/9/2005      6/30/2006        49313           13         Eliminate trip   Grand Rapids P&DC,       7,231        28,924            0        28,924
                                                                               MI to Lansing P&DC,
                                                                               MI
    7/9/2005      6/30/2006        49313           14         Eliminate trip   Lansing P&DC, MI to      7,012        28,047            0        28,047
                                                                               Grand Rapids P&DC,
                                                                               MI
    7/12005       6/30/2009        49836            9         Eliminate trip   Upper Peninsula          19,784       62,650            0        62,650
                                                                               P&DF, MI to
                                                                               Gladstone, MI
    7/12005       6/30/2009        49836           10         Eliminate trip   Gladstone, MI to         19,784       62,650            0        62,650
                                                                               Upper Peninsula
                                                                               P&DF, MI
    9/3/2005      6/30/2006        53029            1         Eliminate trip   Milwaukee P&DC, WI       37,505      150,021            0       150,021
                                                                               to Portage, WI
    9/3/2005      6/30/2006        53029            2         Eliminate trip   Portage, WI to           37,505      150,021            0       150,021
                                                                               Milwaukee P&DC, WI
    9/3/2005      6/30/2008        53032           14         Eliminate trip   Belgium, WI to           5,123        11,101            0        11,101
                                                                               Milwaukee P&DC, WI



                                                                               15
Surface Transportation – Processing and Distribution Center                                                        NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area


                                   Highway
  Effective          Ending        Contract                                                                        Estimated
 Date of Last       Date of         Route           Trip                             Origin to         Annual       Contract      Indemnity   Estimated
   Change           Contract       Number          Number     Recommendation        Destination      Budget Cost     Cost            Fees      Savings
   8/27/2005        6/30/2008        53057           11       Eliminate trip   Milwaukee P&DC, WI     $ 51,062     $ 110,634       $      0    $110,634
                                                                               to Plymouth, WI
   8/27/2005        6/30/2008        53057           14       Eliminate trip   Sheboygan, WI to         46,706      101,196              0      101,196
                                                                               Milwaukee P&DC, WI
    7/1/2005        6/30/2007        46012           7        Eliminate trip   Indianapolis P&DC,       14,903       17,387          2,484       14,903
                                                                               IN to South Bend
                                                                               P&DC, IN
    7/1/2005        6/30/2007        46012           8        Eliminate trip   South Bend P&DC,         14,065       16,409          2,344       14,065
                                                                               IN to Indianapolis
                                                                               P&DC, IN
   10/1/2005        6/30/2007        46015           23       Eliminate trip   Indianapolis P&DC,       46,945       54,769          7,824       46,945
                                                                               IN to Terre Haute
                                                                               P&DF, IN
   10/1/2005        6/30/2007        46015           24       Eliminate trip   Terre Haute P&DC,        46,945       54,769          7,824       46,945
                                                                               IN to Indianapolis
                                                                               P&DC, IN
   10/8/2005        6/30/2009        474BA           23       Eliminate trip   Bloomington MPA, IN      6,280        19,885              0       19,885
                                                                               to Bloomington
                                                                               (MPO), IN
   10/8/2005        6/30/2009        474BA           24       Eliminate trip   Bloomington (MPO),       6,280        19,885              0       19,885
                                                                               IN to Bloomington
                                                                               MPA, IN


                    TOTALS             73                                                            $1,310,295*   $3,024,201     $108,406    $2,915,795*


AMC     −   Air Mail Center
BMC     −   Bulk Mail Center
P&DC    −   Processing and Distribution Center
P&DF    −   Processing and Distribution Facility
MPA     −   Mail Processing Annex

* Minor rounding difference



                                                                               16
Surface Transportation – Processing and Distribution Center                                                             NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area



                                                                           APPENDIX D

                                        TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                             POSTAL SERVICE MANAGERS DISAGREED


  Effective                   Highway
   Date of      Ending        Contract                                                                                  Estimated
    Last        Date of        Route          Trip                                       Origin to          Annual       Contract      Indemnity   Estimated
  Change        Contract      Number         Number       Recommendation                Destination       Budget Cost     Cost            Fees      Savings
   7/1/2005     6/30/2007       60515            7        Eliminate trip         Fox Valley P&DC, IL to     $21,620     $ 25,223        $ 3,603    $ 21,620
                                                                                 Palatine P&DC, IL
   7/1/2005     6/30/2007       60515            8        Eliminate trip         Palatine P&DC, IL to        21,312         24,864        3,552       21,312
                                                                                 Fox Valley P&DC, IL
  12/1/2005     6/30/2009       605M3            5        Eliminate trip         Fox Valley P&DC, IL to      26,593         84,211           0        84,211
                                                                                 Irving Park Road
                                                                                 P&DC, IL
  12/1/2005     6/30/2009       605M3            6        Eliminate trip         Irving Park Road            26,593         84,211           0        84,211
                                                                                 P&DC, IL to Fox Valley
                                                                                 P&DC, IL
   9/3/0005     6/30/2006       607L5           91        Eliminate Sunday and   Chicago Metro Surf Hub      80,224       320,894            0       320,894
                                                          Tuesday trips          (Busse), IL to
                                                                                 Greensboro P&DC, NC
   9/3/0005     6/30/2006       607L5           92        Eliminate Sunday and   Greensboro P&DC, NC         80,224       320,894            0       320,894
                                                          Tuesday trips          to Chicago Metro Surf
                                                                                 Hub (Busse), IL
   7/2/2005     6/30/2009       48110           17        Eliminate trip         Detroit P&DC, MI to         12,793         40,511           0        40,511
                                                                                 Royal Oak P&DC, MI
   7/2/2005     6/30/2009       48110           18        Eliminate trip         Royal Oak P&DC, MI to       13,219         41,861           0        41,861
                                                                                 Detroit P&DC, MI
   7/1/2005     6/30/2009       530M9            1        Eliminate trip         Milwaukee P&DC, WI to       85,763       271,583            0       271,583
                                                                                 St. Louis P&DC, MO
   7/1/2005     6/30/2009       530M9            2        Eliminate trip         St Louis P&DC, WI to        85,763       271,583            0       271,583
                                                                                 Milwaukee P&DC, MO



                                                                                   17
Surface Transportation – Processing and Distribution Center                                                      NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area


  Effective                   Highway
   Date of      Ending        Contract                                                                           Estimated
    Last        Date of        Route          Trip                                 Origin to         Annual        Contract     Indemnity   Estimated
  Change        Contract      Number         Number       Recommendation          Destination      Budget Cost      Cost           Fees       Savings
   7/1/2005     6/30/2007       46040            1        Eliminate trip   Indianapolis P&DC, IN     $20,004     $   23,338       $3,334    $   20,004
                                                                           to Carmel, IN
   7/1/2005     6/30/2007       46040            2        Eliminate trip   Carmel, IN to              20,004         23,338        3,334        20,004
                                                                           Indianapolis P&DC, IN
  10/1/2005     6/30/2009       460L0            5        Eliminate trip   Indianapolis P&DC, IN      30,225         95,713            0        95,713
                                                                           to Gary P&DC, IN
  10/1/2005     6/30/2009       460L0            6        Eliminate trip   Gary P&DC, IN to           31,200         98,801            0        98,801
                                                                           Indianapolis P&DC, IN


                 TOTALS           14                                                                $555,537     $1,727,027*     $13,823    $1,713,204*



P&DC − Processing and Distribution Center

* Minor rounding difference




                                                                             18
Surface Transportation – Processing and Distribution Center   NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area



                      APPENDIX E. MANAGEMENT’S COMMENTS




                                                   19
Surface Transportation – Processing and Distribution Center   NL-AR-06-008
 Highway Transportation Routes – Great Lakes Area




                                                   20
